No. 19-386

IN THE

MONROE COUNTY COMMISSION,
Petitioner,
v.
A.A. NETTLES, SR. PROPERTIES LIMITED AND
EULA LAMBERT BOYLES,
Respondents.
On Petition for a Writ of Certiorari
to the Supreme Court of Alabama
REPLY BRIEF

Jamie Helen Kidd
WEBB & ELEY, P.C.
7475 Halcyon Pointe Dr.
Post Office Box 240909
Montgomery, AL 36124
(334) 262-1850

Sarah E. Harrington
Counsel of Record
Erica Oleszczuk Evans
Charles H. Davis
GOLDSTEIN &
RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
sh@goldsteinrussell.com

TABLE OF CONTENTS
TABLE OF AUTHORITIES ........................................ ii
INTRODUCTION ........................................................ 1
I.

Respondents’ Suggestion That This Case is
Moot Is Incorrect And Disingenuous .................... 3

II. The Alabama Supreme Court’s ReversePreemption Decision Is Wrong And Warrants
This Court’s Review .............................................. 6
III. Respondents’ Request That This Court Add A
Question Is Misplaced ........................................... 9
CONCLUSION .......................................................... 12

ii
TABLE OF AUTHORITIES
Cases
Preseault v. ICC,
494 U.S. 1 (1990) ............................................ passim
Preseault v. United States,
100 F.3d 1525 (Fed. Cir. 1996) ................................ 3
Statutes
Tucker Act, 28 U.S.C. § 1491(a)(1) .................. 7, 10, 11
16 U.S.C. § 1247(d) ............................................ passim
49 U.S.C. § 10501 ......................................................... 6
49 U.S.C. § 10501(b) .................................................... 9
Other Authorities
H.R. Rep. No. 98-28 (1983) .......................................... 5
Mike Qualls, Trail Lawsuit Appeal Gets
Extension, The Monroe Journal, Nov. 21, 2019 ...... 5
S. Rep. No. 98-1 (1983) ................................................ 5
Stephen M. Shapiro et al., Supreme Court
Practice (11th ed. 2019) ......................................... 10

INTRODUCTION
The Supreme Court of Alabama held that state
law preempts conflicting federal law, even though the
federal law contains an express preemption provision.
That holding is obviously wrong and should be reversed.
The federal law governing the “Rails-to-Trails”
program authorizes the conversion of a railroad rightof-way that is under the jurisdiction of the Surface
Transportation Board (STB) to a trail-use right-ofway—and it expressly preempts state law that would
stand in the way of that conversion. Under Alabama’s
state property law, disuse of a railway right-of-way or
conversion of a rail-use right-of-way to trail use can
terminate the right-of-way in some circumstances.
There is no dispute about that. But federal law expressly preempts that state law, preserving the rightof-way in the face of disuse and authorizing its conversion to interim trail use when (as here) permitted by
the STB and subject to restoration to future rail uses.
The Supreme Court of Alabama held that, notwithstanding the supremacy of federal law, its state
property law preempts application of the federal law
governing the rails-to-trails scheme. Respondents essentially concede as much. As explained in the petition for a writ of certiorari, that decision is incorrect
and conflicts with multiple decisions of federal courts
of appeals and other state courts of last resort. A State
cannot simply exempt itself from an interstate federal
program that expressly displaces state law—particularly when the federal program is designed to maintain the existence of an interstate rail corridor.

2
With little to say in response to the obvious certworthiness of the petition, respondents resort to
grasping at straws by mischaracterizing the facts on
the ground and the Supreme Court of Alabama’s decision. First, respondents disingenuously contend that
the question presented in the petition will have “no
real-world consequences” because “[s]ince the filing of
the petition, the Commission has made clear that it
does not plan to move forward with its rails-to-trails
program.” Br. in Opp. 5. That assertion is false, as
respondents’ own brief bears out. Petitioner filed the
petition for a writ of certiorari for the express purpose
of completing the trail that is the subject of this litigation—and no act or statement by petitioner even hints
otherwise. More broadly, allowing the Alabama
courts’ erroneous decision to stand will prevent petitioner and others from pursuing many future rails-totrails projects in Alabama.
Second, respondents attempt to reimagine this
case as a takings case. Respondents argue that the
state court merely decided whether application of federal law would violate respondents’ state-law rights if
the railroad right-of-way were converted to a trail-use
right-of-way—but did not decide whether federal law
made the conversion to trail use effective. That view
is impossible to square with respondents’ own cause of
action (a quiet-title action, not a taking claim) or with
the Alabama Supreme Court’s decision affirming the
trial court’s entry of a permanent injunction blocking
construction of the trail that was authorized by federal
law.
Finally, respondents’ suggestion (Br. in Opp. 6,
21-24) that, if the Court grants the petition, it should
also consider whether Congress intended the rails-to-

3
trails program to effect the taking of property, is misplaced. This Court has already held that a compensable taking claim may arise in this and similar circumstances. Preseault v. ICC, 494 U.S. 1 (1990). Indeed,
an extensive body of federal law already exists to govern such claims. E.g., Preseault v. United States, 100
F.3d 1525 (Fed. Cir. 1996) (en banc). If respondents
believe they are entitled to compensation for a taking,
they should file a claim in the appropriate court seeking such compensation. Any complaints respondents
have about the federal-court procedures established to
govern such claims should be considered in that lawsuit, not added as a thought exercise to this one.
I.

Respondents’ Suggestion That This Case is
Moot Is Incorrect And Disingenuous.

Respondents assert that, “[w]ith or without this
Court’s intervention, the trail at the center of this dispute will likely never be built.” Br. in Opp. 7. That
assertion is completely false. As respondents well
know, petitioner will continue with the construction of
the trail at issue here if and when the Alabama Supreme Court’s erroneous decision is reversed.
a. The trail at issue here involves 7.42 miles of
rail line that includes a right-of-way across respondents’ land. Pet. App. 5a. Although nearly all of the
trail has already been constructed, the right-of-way
over respondents’ land lies at the center of the trail
and includes an 840-foot tunnel that is the centerpiece
of this trail project. Rails to Trails Conservancy (RTC)
Amicus Br. 8. Because there are no other trail destinations within 80 miles of Monroe County, petitioner
expects the trail to be an economic boon to the County.
Id. at 9. For that reason, the trail has enjoyed strong

4
support from local businesses, ibid., and petitioner intends to complete it. At this point, the only thing preventing petitioner from completing the trail is the decision of the Alabama Supreme Court—and petitioner’s ongoing effort to get that decision overturned
demonstrates that petitioner is serious about completing the trail and has every intention of doing so if the
legal obstacle of the state court’s decision is removed.
In support of their false assertion that “there is no
real-world controversy” about the trail at issue here,
Br. in Opp. 8, respondents rely on a decision by petitioner not to pursue a different rails-to-trails project.
Id. at 7. That project, as respondents acknowledge, involved 47 miles of different rail line, arising from a different Notice of Interim Trail Use. Ibid. (“[T]he Commission’s vote addressed a portion of its trail project
not at issue in this dispute[.]”). It did not involve the
trail at issue in this case and did not involve any rightof-way over respondents’ land. Respondents’ contention (ibid.) that petitioner’s decision not to pursue a
different project “made clear” that it would not pursue
this project has no basis in reality. Petitioner intends
to complete construction of this trail if this Court restores the supremacy of federal law in this context.
b. Far from indicating that no controversy remains, petitioner’s decision not to pursue a different
rails-to-trails project illustrates the damaging effects
the state court’s decision is already having on rail-corridor preservation. Although the newspaper article
that reported the vote does not reflect why petitioner
opted not to pursue a different rails-to-trails project, it
is not difficult to imagine that it preferred not to invest
its resources only to have its trail project derailed by
the state court’s reverse-preemption holding in this

5
case. In fact, the newspaper article respondents rely
on quotes County Commissioner Billy Ghee saying:
“I’m for holding on to what we have ([the] Tunnel
Springs trail [at issue here]), but it would be ludicrous
to try and take on another trail with the problems
we’ve had with this one.” Mike Qualls, Trail Lawsuit
Appeal Gets Extension, The Monroe Journal, Nov. 21,
2019, at 8A (cited at Br. in Opp. 7). The Commission
vote that respondents rely on is therefore a real-world
illustration of the harm the Alabama Supreme Court’s
decision is already causing, not evidence that no controversy exists.
If the decision below is permitted to stand, other
rails-to-trails projects in the State of Alabama will face
similar fates because that decision makes it essentially impossible to convert a railroad-use right-of-way
into an interim trail-use right-of-way without the consent of the underlying or contiguous property owner.
That is the opposite of what Congress intended. See
Preseault, 494 U.S. at 8 (explaining that 16 U.S.C.
§ 1247(d) displaces state law that would deem a railroad right-of-way to be abandoned when converted to
a trail use); H.R. Rep. No. 98-28, at 8-9 (1983); S. Rep.
No. 98-1, at 9 (1983).
The real-world consequences of the state court’s
decisions are explained in some detail in the amicus
briefs supporting the petition. The amicus brief on behalf of the Rails to Trails Conservancy, et al., explains,
for example, that “if the Alabama Supreme Court’s
holding stands, despite the clear contradictory requirements of the Trails Act, trails like this will be
much harder to create in Alabama.” RTC Amicus Br.
3. Equally important, amicus Association of American
Railroads (AAR) explains that if, as the Alabama

6
courts held, state courts can “extinguish railroads’
property rights based on their varying views of what
constitutes a railroad’s non-use of property, the national rail network would become fragmented and unmanageable, with segments of rail lines being removed
from the rail network without federal oversight or approval.” AAR Amicus Br. 14. As a result, it would become more difficult for railroads “to carry out their
statutory obligations as common carriers.” Id. at 2.
In sum, the “real-world consequences,” Br. in Opp.
5, of the issues raised in the petition are concrete in
this case and are serious enough in general to warrant
this Court’s intervention.
II. The Alabama Supreme Court’s ReversePreemption Decision Is Wrong And Warrants
This Court’s Review.
As explained in the petition, federal law grants to
the STB exclusive jurisdiction over the abandonment
of rail lines and over the conversion of railroad rightsof-way to interim trail use, in lieu of abandonment.
16 U.S.C. § 1247(d); 49 U.S.C. § 10501. Federal law
also expressly preempts the application of state property law that would treat the conversion of a railroad
right-of-way to a trail-use right-of-way as an abandonment of the right-of-way under state law. 16 U.S.C.
§ 1247(d); see 49 U.S.C. § 10501. The Supreme Court
of Alabama held the opposite when it affirmed an injunction blocking petitioner from building the trail because, it held, state law prevented the conversion of
the railroad-use right-of-way to a trail-use right-ofway. That decision is wrong and conflicts with decisions of multiple federal courts of appeals and state
courts of last resort. Pet. 10-21.

7
Respondents’ defense of the state court’s reversepreemption holding is frankly bizarre. Ignoring the
nature of their own cause of action and of the relief
they sought and obtained from the state courts, respondents attempt to reimagine this suit as a taking
claim—and to reinvent the state-court judgment as
simply an advisory declaration of respondents’ statelaw property rights that were taken when the railroad
right-of-way was converted to an interim trail-use
right-of-way. The story they tell has no basis in the
Alabama Supreme Court’s decision and should be rejected.
Respondents consume pages and pages explaining
that state law “define[s] state property interests implicated by the rails-to-trails program.” Br. in Opp. 10;
id. at 8-19. No one disputes that. It is common ground
that application of the rails-to-trails scheme may abrogate state-law property rights by preventing the extinguishment (and reversion) under state law of a railroad right-of-way. Whether state-law property rights
are abrogated is, of course, a question of state law.
And if respondents were to file a taking claim pursuant to the Tucker Act, 28 U.S.C. § 1491(a)(1), their
state-law property rights would be adjudicated, a precondition to a court’s deciding whether respondents
would be entitled to compensation from the federal
government for any abrogation of those rights, Preseault, 494 U.S. at 9-15.
But respondents did not file a taking claim; they
filed a quiet-title action to prevent execution of the conversion to trail use through a permanent injunction.
Pet. App. 5a-6a, 39a. And the question presented in
this suit is whether state property law governing reversion of a railroad right-of-way can prevent

8
application of federal law that would block such a reversion when the right-of-way is converted to an interim trail use pursuant to the federal railbanking
law. Every other court to consider the question has
correctly held that the federal law governing the railsto-trails program preempts any state law that would
block the conversion to trail use. The Supreme Court
of Alabama held the opposite—that state property law
preempts application of federal law because the state
law “existed before the advent of railroads.” Pet. App.
9a. In other words, the state court held that, because
the rails-to-trails scheme would displace respondents’
state-law property rights, the federal law was
preempted. As explained in the petition, that holding
is wrong, directly conflicts with decisions of federal
courts of appeals and other state courts of last resort,
and poses a serious ongoing obstacle to the operation
of federal law.
Respondents are correct that “the Railroad could
only transfer by quitclaim deed the property rights it
actually possessed at the time of execution.” Br. in
Opp. 11. The question presented in this case is
whether federal railbanking law or state property law
defined the railroad’s use rights at that moment. The
Alabama Supreme Court held that, under state law,
the railroad had no right-of-way to convey because it
had been abandoned—first, when the railroad stopped
using the line and second, when the railroad changed
the purpose of the right-of-way from a railroad use to
a trail use. Pet. App. 9a-13a. But Congress has expressly preempted state property law in these circumstances, providing that, “in the case of interim use of
any established railroad rights-of-way,” “if such interim use is subject to restoration or reconstruction for

9
railroad purposes, such interim use shall not be
treated, for purposes of any law or rule of law, as an
abandonment of the use of such rights-of-way for railroad purposes.” 16 U.S.C. § 1247(d) (emphases added);
see 49 U.S.C. § 10501(b) (giving the STB “exclusive”
“jurisdiction” over “abandonment” of rail lines).
Respondents ultimately acknowledge the possibility that federal law could authorize creation of the
trail, notwithstanding respondents’ state-law property
rights, arguing (Br. in Opp. 20-21) that the federal government (or petitioner) is free to build a trail on respondents’ property by exercising a right of eminent
domain. That is a non sequitur. The Constitution
makes federal law the supreme law of the land, and
Congress has relied on that supremacy to displace
state law that would prevent conversion of a railroad
right-of-way to an interim trail-use right of way.
Whether the federal government could build a trail in
its own name through the exercise of eminent domain
has nothing to do with the preemption question presented here. Respondents’ eminent-domain arguments are a red herring.
III. Respondents’ Request That This Court Add
A Question Is Misplaced.
Implicitly acknowledging that the Alabama Supreme Court’s decision warrants this Court’s review,
respondents urge (Br. in Opp. 21-24) the Court to add
an additional question if it grants the petition. Specifically, respondents urge the Court to “address the underlying question whether Congress actually authorized the Surface Transportation Board to oversee a
broad, costly program of rails-to-trails takings.” Id. at
21 (capitalization altered). If the Court grants the

10
petition to address the question presented, it can certainly answer any questions that are subsumed within
the question, including predicate questions. Stephen
M. Shapiro et al., Supreme Court Practice ch. 6.25(g),
at 6-94 to 6-98 (11th ed. 2019). But the question respondents would add is neither subsumed within nor
a predicate to the question presented.
First, the question respondents would have this
Court add was neither pressed nor passed on below.
Supreme Court Practice, supra, ch. 6.26(b), at 6-103 to
6-105. Respondents do not contend otherwise. That is
not surprising because respondents did not seek compensation for a taking in this lawsuit; they sought an
injunction that would use state law to block a land use
authorized by federal law.
Second, although respondents argue (Br. in Opp.
22-23) that Congress could not have intended to create
a takings regime when it created the rails-to-trails
program, this Court held nearly 30 years ago that Congress intentionally displaced state-law property
rights, Preseault, 494 U.S. at 8-9; “that rail-to-trail
conversions giving rise to just compensation claims
are clearly authorized by” Section 1247(d), id. at 13;
and that landowners may seek compensation for any
rails-to-trails taking under the Tucker Act, id. at 1317. If respondents believe that the conversion at issue
in this case gives rise to a taking, they can pursue the
remedy this Court has already identified. And if respondents are dissatisfied with the statutory scheme,
they may address their complaints to Congress.
Finally, none of the issues respondents raise (Br.
in Opp. 23-24) about the takings-compensation
scheme developed by the Federal Circuit over the last
20 years is properly presented in this case. If

11
respondents feel that the conversion of the railroaduse right-of-way to a trail-use right-of-way effected a
compensable taking, the proper course is to seek compensation from the federal government under the
Tucker Act. Any problems respondents perceive in the
Tucker Act remedy and associated procedures may be
explored in that litigation.
*****
At bottom, there is no denying that federal law expressly preempts state law in this area—and that the
Supreme Court of Alabama erred in holding that the
opposite is true. The rails-to-trails program is a critical component of Congress’s important interstate goal
of preserving our Nation’s railroad infrastructure for
“future reactivation of rail service, to protect rail
transportation corridors, and to encourage energy efficient transportation use.” 16 U.S.C. § 1247(d); Preseault, 494 U.S. at 5-9. A single State should not be
permitted to undermine that interstate project by
simply declaring that it is exempt from the supremacy
of this federal law. The decision below conflicts with
decisions of every other state court of last resort and
every federal court of appeals to address the question
presented. This Court should restore nationwide uniformity in this quintessentially interstate—and quintessentially federal—area of law.

12
CONCLUSION
For the foregoing reasons, and those offered in the
petition for a writ of certiorari, the petition should be
granted for plenary review. In the alternative, the
Court may wish to consider summarily reversing the
Supreme Court of Alabama’s decision.
Respectfully submitted,
Jamie Helen Kidd
WEBB & ELEY, P.C.
7475 Halcyon Pointe Dr.
Post Office Box 240909
Montgomery, AL 36124
(334) 262-1850

December 20, 2019

Sarah E. Harrington
Counsel of Record
Erica Oleszczuk Evans
Charles H. Davis
GOLDSTEIN &
RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
sh@goldsteinrussell.com

